No. 19-518
In the

Supreme Court of the United States
___________

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.

MOTION FOR LEAVE TO DISPENSE WITH PREPARATION OF A
JOINT APPENDIX
PHILIP J. WEISER
Attorney General
ERIC R. OLSON
Solicitor General
Counsel of Record
GRANT T. SULLIVAN
Assistant Solicitor General

Office of the Colorado
Attorney General
1300 Broadway
Denver, Colorado 80203
(720) 508-6000
Eric.Olson@coag.gov

Under Supreme Court Rule 26.8, Petitioner Colorado Department
of State respectfully seeks leave to dispense with the requirement of
printing a joint appendix in this case. Counsel for Respondents Micheal
Baca, Polly Baca, and Robert Nemanich concur in this motion.
The Court previously granted the Department’s request for an
extension of time through April 1, 2020 to prepare the joint appendix,
enabling the Department’s counsel to first review Respondents’ brief
before deciding what relevant portions of the record (if any) should be
included in the joint appendix. Having now reviewed Respondents’
brief, the Department does not believe any additional portions of the
record need to be included in a joint appendix. The relevant portions of
the record in this case are already included in the appendix to the
Department’s petition for a writ of certiorari, including the operative
complaint, the district court’s opinion, and the court of appeals’ opinion.
The parties have conferred and do not believe that any other
portions of the record in this case warrant the preparation and expense
of a joint appendix. A separate joint appendix would not materially
assist the Court in its consideration of this case. The Court has already
2

dispensed with the requirement of a joint appendix in the related case
arising out of Washington, Chiafalo v. Washington, No. 19-465. Thus,
Petitioner respectfully request that this motion to dispense with
printing a joint appendix in this appeal, Colorado Department of State
v. Baca, No. 19-518, be granted.
Dated April 1, 2020.
PHILIP J. WEISER
Attorney General of Colorado
/s/ Eric R. Olson
ERIC R. OLSON
Solicitor General
Counsel of Record
GRANT T. SULLIVAN
Assistant Solicitor General
1300 Broadway
Denver, Colorado 80203
Telephone: 720-508-6000
Email: Eric.Olson@coag.gov
Counsel for Petitioner Colorado
Department of State

3

